NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

States Qlimri of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted September 17, 2020’
Decided October 1, 2020
Before
DAVID F. HAMILTON, Circuit, fudge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-1866
MICHAEL EDWARDS,
Plaintiff-Appellant,

v.
INDIANA UNIVERSITY,
Defendant-Appellee.

Appeal from the United States District
Court for the Southern District of Indiana,
Indianapolis Division.
No. 1:19-cv-Ol000-JMS-MJD
Jane Magnus-Stinson,

ChiefJudge.
ORDER

Michael Edwards, who had taught at Indiana University for nearly two decades,
believes that he was fired from his job because of his race. He used a form complaint
from the Southern District of Indiana to sue the University for race discrimination. The
district court, construing his complaint under 42 U.S.C. § 1981 and Title VII of the Civil

* We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

No. 20-1866

Page 2

Rights Act of 1964, 42 U.S.C. § 2000e-2(a), found no evidence that race influenced the
University's decision and entered summary judgment against him. We affirm.
Edwards was fired for sexual misconduct with a student. According to that
student s complaint, Edwards invited her to his home, where he massaged her without
her consent and then proposed that she have a sexual relationship with him. Over
Edwards's denials, the University credited the student's allegations because she
provided significant details about the incident's time and location, including a detailed
description of Edwards's home. The student corroborated her account with
contemporaneous text messages she had sent to a friend. Further, Edwards's
inappropriate conduct had been the subject of complaints that four other students
previously had made to the University. Because Edwards's misconduct violated the
University's sexual misconduct policy, it fired him in June 2018.
After filing a discrimination charge with the Equal Employment Opportunity
Commission in late 2018, Edwards sued the University. He alleged mistreatment based
on race in several earlier incidents (e.g., his discharge from the Chemistry Department
in early 2010, his denial of a promotion in the School of Public Environmental Affairs in
late 2010, a halt to his funding for minority outreach in 2012, and a shouting outburst
from the co-chair of the Chemistry Department in 2016). He also invoked race
discrimination in his recent firing-an inference he draws from the student's allegations
(which he regards as unfounded) and the slow pace of the University's investigation.1
The district court construed his claims under § 1981 and Title VII and entered
summary judgment for the University. The court concluded that the University's
sovereign immunity under the Eleventh Amendment barred Edwards's § 1981 claims
and that any evidence of race influencing the University's investigation or its decision
to fire him was "glaringly absent."
/
On appeal, Edwards generally challenges the district court's decision to enter
summary judgment for the University on his Title VII claim of racial discharge. But to
avoid summary judgment on this claim, he needed to produce evidence that the
University fired him because of his race—in other words evidence "considered as a
whole, [that] 'would permit a reasonable factfinder to conclude that [Edwards's]
race. .. caused [his] discharge.'" Abrego v. Wilkie, 907 F.3d 1004,1012 (7th Cir. 2018)

1 Edwards also brought a claim for retaliation, which the district court rejected,
but he says no more here about it, and neither do we.

No. 20-1866

Page 3

(quoting Ortiz v. Werner Enters., Inc., 834 F.3d 760, 765 (7th Cir. 2016)). Edwards has not
met this burden. As the district court concluded, evidence of race affecting the
University's investigation and Edwards's discharge is "glaringly absent." Although
Edwards denies the student's allegations and insists that race must have played a role
in the investigation and his discharge, his subjective belief, without more, is not enough
to survive summary judgment. See Yancick v. Hanna Steel Corp., 653 F.3d 532, 548
(7th Cir. 2011).
Edwards disagrees with the court's refusal to consider incidents of bullying that
he experienced at the University between 2010 and 2016—incidents the court
appropriately found time-barred because he did not file his charge with the EEOC
within the requisite 180 days. 42 U.S.C. § 2000e-5(e). Such time-barred evidence may not
form the basis of a Title VII discrimination claim, though it can be relevant for a court's
evaluation of a claim that is timely filed. Nat 'l R.R. Passenger Corp. v. Morgan, 536 U.S.
101,113 (2002); Malin v. Hospira, Inc., 762 F.3d 552, 561 (7th Cir. 2014). But Edwards does
not explain, let alone hint at, how the bullying incidents relate to the sexual-assault
allegations, the University's investigation, or his discharge.
We have considered Edwards's remaining arguments, and none has merit.
AFFIRMED.

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
October 1, 2020

Before:

DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

MICHAEL EDWARDS,
Plaintiff - Appellant
No. 20-1866

v.
INDIANA UNIVERSITY,
Defendant - Appellee

Originating Case Information:
District Court No: l:19-cv-01000-JMS-MJD
Southern District of Indiana, Indianapolis Division
District Judge Jane Magnus-Stinson
The judgment of the District Court is AFFIRMED, with costs, in accordance with the decision
of this court entered on this date.
form name: c7_FinalJudgment(form ID: 132)

20-1866

)

Michael Edwards
1516 W. Edinburgh Bend
Bloomington, IN 47403

-

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 1 of 29 PagelD #: 462

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
Michael Edwards,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
Indiana University,
Defendant.

No. 1:19-cv-01000-JMS-MJD

ORDER
Pro se Plaintiff Michael Edwards, who is African American, was a Clinical Associate
Professor at Defendant Indiana University (“IU”). After a student complained that Mr. Edwards
had engaged in inappropriate conduct with her, IU investigated the allegations and ultimately
terminated Mr. Edwards’ employment with IU. Mr. Edwards initiated this litigation against IU in
March 2019. [Filing No. 1.1 IU has filed a Motion for Summary Judgment [Filing No. 301. and
a Motion to Strike Late Response to Motion for Summary Judgment, [Filing No. 351. both of which
are now ripe for the Court’s decision.
I.
Motion to Strike Late Response to Motion for Summary Judgment
Because IU’s Motion to Strike relates to the information that the Court will consider when
deciding the Motion, for Summary Judgment, the Court considers the Motion to Strike at the outset.
A. Background
IU filed its Motion for Summary Judgment on January 6, 2020, [Filing No. 301, along with
a Notice Regarding Right to Respond to and Submit Evidence in Opposition to Motion for
Summary Judgment (the “Notice”). [Filing No. 321. IU filed the Notice, and served it on Mr.

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 2 of 29 PagelD #: 463

Edwards, pursuant to Fed. R. Civ. P. 56 and due to Mr. Edwards’ pro se status. The Notice advised
Mr. Edwards that he had the right to file a response to the Motion for Summary Judgment,
summarized several requirements for the response, and provided that:
You must file and serve a copy of your response to the motion for summary
judgment by February 6, 2020, or by other such date ordered by the court. If you
need more time to respond, you must file a motion with the court asking for more
time before the deadline expires. The court may, but is not required to, give you
more time.
(Filing No. 32 at 1-2.1 Mr. Edwards did not seek any extensions of time to file his response to the
Motion for Summary Judgment, but did not file his response until March 23,2020 - forty-six days
after the deadline. fFiling No. 34.1
B. Discussion
In its Motion to Strike, IU argues that “[djespite having received...clear and unequivocal
notice that his response was due by February 6, 2020, and that he must file a motion with the court
asking for more time to respond before the deadline expires if he needed additional time, Edwards
filed his response over six weeks past the deadline - 46 days past to be exact, having never sought
additional time to respond.” fFiling No. 35 at 1-2 (emphasis omitted).] IU contends that Mr.
Edwards’ pro se status “does not relieve him of his litigation duties, and he must comply with
orders and schedules.” fFiling No. 35 at 2.1
Mr. Edwards has not responded to IU’s Motion to Strike.
“We live in a world of deadlines,” Spears v. City of Indianapolis, 74 F.3d 153, 157 (7th
Cir. 1996), and the Court may, in its sound discretion, strike filings that fail to comply with the
deadlines set by applicable rules, Cleveland v. Porca Co., 38 F.3d 289, 298 (7th Cir. 1994).
However, courts also strongly prefer to resolve issues on the merits. See Schilling v. Walworth
Cnty. Park & Planning Comm a, 805 F.2d 272, 275 (7th Cir. 1986). The Court DENIES IU’s
2

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 3 of 29 PagelD #: 464

Motion to Strike Late Response to Motion for Summary Judgment, FFiling No. 351, so that it may
decide the Motion for Summary Judgment on the merits.
II.
Motion for Summary Judgment
A. Standard of Review
A motion for summary judgment asks the Court to find that a trial is unnecessary because
there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law. See Fed. R. Civ. P. 56(a). As the current version of Rule 56 makes clear, whether
a party asserts that a fact is undisputed or genuinely disputed, the party must support the asserted
fact by citing to particular parts of the record, including depositions, documents, or affidavits. Fed.
R. Civ. P. 56(c)(1)(A). A party can also support a fact by showing that the materials cited do not
establish the absence or presence of a genuine dispute or that the adverse party cannot produce
admissible evidence to support the fact. Fed. R. Civ. P. 56(c)(1)(B). Failure to properly support
a fact in opposition to a movant’s factual assertion can result in the movant’s fact being considered
undisputed, and potentially in the granting of summary judgment. Fed. R. Civ. P. 56(e).
In deciding a motion for summary judgment, the Court need only consider disputed facts
that are material to the decision. A disputed fact is material if it might affect the outcome of the
suit under the governing law. Hampton v. Ford Motor Co., 561 F.3d 709, 713 (7th Cir. 2009). In
other words, while there may be facts that are in dispute, summary judgment is appropriate if those

1 On the same day that it filed its Motion to Strike Mr. Edwards’ response brief, IU filed a Motion
for Extension of Time to File Reply. FFiling "No. 36.1 The Court granted the Motion for Extension
of Time, ordering that IU would have 14 days from the date the Court rules on IU’s Motion to
Strike to file a reply in support of its Motion for Summary Judgment. FFilingNo. 37.1 As discussed
below, the Court finds based on IU’s Motion for Summary Judgment and Mr. Edwards’ response
thereto, that all of Mr. Edwards’ claims fail as a matter of law. Accordingly, the Court has ruled
on the Motion for Summary Judgment without the need for IU to file a reply brief.
3

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 4 of 29 PagelD #: 465

facts are not outcome determinative. Harper v. Vigilant Ins. Co.. 433 F.3d 521, 525 (7th Cir.
2005). Fact disputes that are irrelevant to the legal question will not be considered. Anderson v.
Liberty Lobby, Inc., All U.S. 242, 248 (1986).
On summary judgment, a party must show the Court what evidence it has that would
convince a trier of fact to accept its version of the events. Johnson v. Cambridge Indus., 325 F.3d
892, 901 (7th Cir. 2003 ). The moving party is entitled to summary judgment if no reasonable fact­
finder could return a verdict for the non-moving party. Nelson v. Miller, 570 F.3d 868, 875 (7th
Cir. 2009). The Court views the record in the light most favorable to the non-moving party and
draws all reasonable inferences in that party’s favor. Barsi v. Interstate Brands Corp., 512 F.3d
903,907 (7th Cir. 2008). It cannot weigh evidence or make credibility determinations on summary
judgment because those tasks are left to the fact-finder. O'Leary v. Accretive Health, Inc., 657
F.3d 625, 630 (7th Cir. 2011). The Court need only consider the cited materials, Fed. R. Civ. P.
56(c)(3), and the Seventh Circuit Court of Appeals has “repeatedly assured the district courts that
they are not required to scour every inch of the record for evidence that is potentially relevant to
the summary judgment motion before them.” Johnson, 325 F.3d at 898. Any doubt as to the
existence of a genuine issue for trial is resolved against the moving party. Ponsetti v. GE Pension
Plan, 614 F.3d 684, 691 (7th Cir. 2010).
B. Statement of Facts
The following factual background is set forth pursuant to the standards detailed above. The
facts stated are not necessarily objectively true, but as the summary judgment standard requires,
the undisputed facts and the disputed evidence are presented in the light most favorable to “the
party against whom the motion under consideration is made.” Premcor USA, Inc. v. Am. Home
Assurance Co.. 400 F.3d 523, 526-27 (7th Cir. 2005).

4

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 5 of 29 PagelD #: 466

1. Mr. Edwards ’ Employment at IU
IU hired Mr. Edwards in May 2000 as a Visiting Assistant Professor in the School of Public
and Environmental Affairs (“SPEA”). fFiling No. 31-1 at 2; Filing No. 31-19 at 7.1 Mr. Edwards
served as a Clinical Assistant Professor in SPEA from July 2003 through July 2011. fFiling No.
31-1 at 2: Filing No. 3.1-19 at 6.1 From July 2011 to April 2018, he was a Clinical Associate
Professor in both SPEA and the Department of Chemistry. fFiling No. 31-1 at 2: Filing No. 3119 at 6.1
2. IU’s Sexual Misconduct Policy
While Mr. Edwards was an IU employee, IU had a Sexual Misconduct Policy in place (the
“Policy”). The Policy contained the following provisions:
Procedures for Responding to Incidents Involving Allegations of Faculty or Staff
Sexual Misconduct
The University will promptly respond to all complaints of Sexual Misconduct
alleged against a University employee. Any individual reporting that they have
been a victim of sexual violence will be informed of how to, and provided
assistance in, making a criminal complaint with the appropriate law enforcement
agency. Individuals who identify as victims/survivors and all members of the
Indiana University community are also encouraged to visit the Stop Sexual
Violence website at http://stopsexualviolence.iu.edu<http://stopsexualviolence.iu.
edu> for more information on reporting, campus resources and services available
on their campus.
All parties will have equal opportunities to present information, have advisors
present, and pursue an appeal, if applicable. All procedures, excluding any appeal,
should be completed within 60 days, absent any special circumstances.
Throughout this process, the University will have as a priority, the interests of all
parties involved, in regard to fairness, dignity, privacy, and due process. Students
reporting sexual misconduct against an employee will be provided interim and
remedial measures as described in this policy, where appropriate and necessary.
For the purpose of these procedures, relevant officials with key responsibilities are:
Investigator - The Deputy Title EX Coordinator(s) for the respective campus, or
an appropriate designee, will conduct fact-finding as the Investigator and may

5

*

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 6 of 29 PagelD #: 467

coordinate with other offices such as human resources, academic affairs, and
student affairs.
Decisional Official (DO) - The DO will issue the decision determining
responsibility and assigning appropriate sanctions, if applicable. The DO will be
as follows:

For complaints against faculty and academic employees, the DO will be the Vice
Provost/Vice Chancellor for Academic Affairs of the respective campus.
fFiling No. 31-23 at 2-3.1
The Policy further states:
Complaint
Initial Assessment: Upon receipt of a report alleging that a faculty or staff member
has engaged in sexual misconduct, an Investigator will conduct an initial
assessment to determine whether it falls within the scope of the Sexual Misconduct
Policy, and whether it rises to the level of an allegation of sexual misconduct. If a
complaint raises allegations that are outside the scope of the Sexual Misconduct
Policy, but may violate other University policy(ies), the Investigator will refer the
complaint to the appropriate University office....
Investigation
If an investigation is initiated, the Investigator will conduct fact-finding as to the
allegations made against the respondent employee.
The investigation may include, but is not limited to, interviews with the
complainant, the respondent, and other witnesses identified as having information
relevant to the allegations made, as well as the examination of written statements
by the parties, relevant documents, and other relevant information. Information for
the investigation may be provided by complainant, respondent, witnesses identified
by any party, or the University. The Investigator shall ensure that the respondent
has been informed of all allegations raised and the name of the complainant(s), and
is provided the opportunity to respond.
[Tiling No. 31-23 at 3-4.1
As to the results of an investigation, the Policy provides:
Report of Investigation
The Investigator will create a report at the conclusion of their investigation setting
forth:
6

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 7 of 29 PagelD #: 468

1. the specific allegation(s);
2. the respondent’s response to the allegation(s);
3. a summary of the relevant information gathered'from the parties, witnesses and
other sources;
4. an analysis of the information;
5. a recommendation as to whether the respondent is responsible or not
responsible for the alleged violation(s) of the Sexual Misconduct Policy, using
a preponderance of the evidence standard (more likely than not); and
6. a recommendation as to appropriate sanctions, if any, as set forth below.
The report will be forwarded to the DO. The parties shall also be provided access
to the report, and shall be provided 10 calendar days to submit any comments to the
DO in writing.
Finding and Decision
Upon receiving the Investigator’s report, and any comments received from either
party, the DO shall issue a finding. The DO may consult with the Investigator
concerning the investigation and recommendations. If the DO wishes further
consultation with the parties, the Investigator will facilitate consultations to ensure
equal opportunities for the parties to meet with the DO.
The DO will issue one of the following findings, using a preponderance of the
evidence standard:
Finding of “No Violation” of the University’s Sexual Misconduct Policy:
If there is a determination that the behavior alleged and investigated did not violate
the Sexual Misconduct Policy, the DO shall provide the parties written notice of
the finding. In the event the investigation reveals that the employee may have
violated a different University policy, the DO may address any such potential
violation through other applicable University policies. Documentation regarding a
finding of “No Violation” shall be maintained with the respective Deputy Title IX
Coordinator’s office, and not in the employee’s personnel file.
Finding of a “Violation” of the University’s Sexual Misconduct Policy:
If there is a determination that the behavior alleged and investigated was in
violation of the Sexual Misconduct Policy, the DO shall issue the finding and
sanction(s) (based on the level of sanctions set forth below).
The DO shall provide the parties written notice of the finding and any sanctions if
applicable.
7

'

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 8 of 29 PagelD #: 469

[Filing No. 31-23 at 5-6.1
Sanctions for a violation of the Policy can range from those that do not “directly modify
job duties or actual salary,” such as requiring additional training, all the way to termination. f Filing
No. 31-23 at 6.1
Upon a finding of “Violation” coupled with imposition of a “level two” sanction (which
can include termination):
[A]ny party may request an appeal to the Appellate Officer [(the “AO”)] on the
basis of:
1. Significant procedural error that reasonably would have affected the outcome;
2. Significant bias in the process;
3. The finding of responsibility is not supported by the evidence in the Report of
Investigation; and/or
4. The appropriateness of the sanctions.
[Filing No. 31-23 at 6.1
A request for an appeal “must be submitted in writing to the [AO] within 10 calendar days
of receiving the DO’s decision. The request must set forth the basis for seeking an appeal, and
include information to support such basis(es).” [Filing No. 31-23 at 7.1 The AO for an appeal by
a faculty member is the Provost of the campus where the faculty member is employed. [Filing No.
31-23 at 3.1 The AO “shall review the findings, and any applicable sanctions, in making a
decision[, and] shall make a final determination within 10 calendar days of the receipt of any
appeal” either affirming the DO’s original findings, setting aside the original findings and
imposing a new finding and/or sanction, or setting aside the original findings and ordering a new
investigation. fFiling No. 31-23 at 7.1

8

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 9 of 29 PagelD #: 470

After a decision by the AO, a faculty member may request a review by the Faculty Board
of Review (“FBR”). [riling No. 3.1-23 at 3; Filing No. 31-23 at 7.1 The FBR may then affirm the
AO’s decision, recommend an alternative finding and/or sanction, or recommend that the
determination be set aside and a new investigation take place. [Tiling No. 31-23 at 8.1 Within ten
calendar days of receiving the FBR’s recommendation, the AO will make a final determination
either affirming the prior decision on appeal, setting aside the prior determination and imposing a
new finding and/or sanction, or setting aside the prior determination on appeal and ordering a new
investigation. [Filing No. 31-23 at 9.1 The Policy provides that “[i]f the FBR recommends that
the AO’s prior determination be modified, but the AO affirms the prior determination, the final
determination shall be made by the [IU] President.” [Filing No. 31-23 at 9.1
3. Prior Allegations ofInappropriate Conduct by Mr. Edwards
Prior to the allegations in December 2017 regarding inappropriate conduct by Mr. Edwards
which are the focus of this lawsuit, IU had received complaints from several other students,
including:
•

In March 2013, a student, A.J., reported that she was in the SPEA Cafe getting
coffee when Mr. Edwards (a stranger to her) approached her and asked if he
could get her a cup of coffee. She declined, and he then began asking her
personal questions including her age, area of study, and how long she had been
at IU. When A.J. told Mr. Edwards that she had to leave, Mr. Edwards was
very persistent and said “I can’t let you go yet.” Mr. Edwards asked A.J. to
email him, which she later did. Mr. Edwards asked her via email to have coffee
when he returned from a trip, then emailed again to say he had not ended up
going on the trip. A.J. did not respond to his emails, and reported her encounter
to IU. Mr. Edwards was notified of the complaint and told not to have any
further contact with A.J.

•

In April 2014, Mr. Edwards was teaching a group exercise class for the Student
Recreational Sports Center at IU when a student taking the class, S.K.,
complained that Mr. Edwards gave her undue attention during the class and
placed his hands on her hips while demonstrating proper form for an exercise.
During another session, Mr. Edwards again singled out S.K. and put his hands
on her hip area twice. At the end of the class, Mr. Edwards asked S.K. to stay
9

‘ Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 10 of 29 PagelD #: 471

afterwards and they were alone in the exercise room. Mr. Edwards asked S.K.
to demonstrate an exercise that involved her getting on her hands and knees.
When she did so, Mr. Edwards again touched her hip areas and her buttocks.
S.K. gave him a stem look and got up to leave, and Mr. Edwards insisted that
she shake his hand. Ele then held her hand for an uncomfortably long period of
time, and proceeded to shake her hand five times. IU Student Recreational
Sports Center administrative staff discussed the complaint with Mr. Edwards
and he was given a written warning.
•

Also in April 2014, a graduate student in the English Department, P.P.,
complained regarding several interactions she had with Mr., Edwards. During
the spring of 2014, Mr. Edwards approached P.P. in the central atrium of the
Herman Wells Library, told her she was pretty, asked if she was from India,
said he had seen her at the gym, asked her name, and said he wanted her email
and last name. He continued talking to P.P., despite the fact that P.P. was rude
to him. He saw her in Starbucks and again began to talk to her, asking if P.P.
liked ethnic food and if she would like to go shopping with him to an ethnic
grocery store in Indianapolis. P.P. did not verbally respond, and he told her the
ball was in her court, and returned a few minutes later and told her the ball was
in her court again. P.P. did not respond, and began going to a different
Starbucks. When Mr. Edwards appeared at the new Starbucks, P.P. was
concerned. Later that month, P.P. was sitting in a restaurant on Kirkwood when
one of the people she was with told her that there was a man staring at her
through the window. It was Mr. Edwards. P.P. saw Mr. Edwards on two other
occasions when he tried to talk to her, and on one of those occasions he touched
P.P.’s elbow. Each time, P.P. moved away from Mr. Edwards and did not speak
to him. She felt like there was nowhere she could go without mnning into Mr.
Edwards.

•

In January 2015, an IU employee, S.P., was working at the IU Student
Recreational Sports Center when Mr. Edwards, who was acting as a group
exercise leader, began bothering her and making her uncomfortable. Mr.
Edwards approached S.P., told her how beautiful she was, and asked for her
phone number. S.P. told Mr. Edwards that she had a boyfriend and continued
working. Mr. Edwards then leaned up very close to S.P. and was very
persistent. After S.P. reported the incident, Mr. Edwards was terminated from
the Student Recreational Sports Center.

[Filing No. 31-14 at 5-6.1
4. December 2017 Allegations of Inappropriate Conduct by Mr. Edwards
An Investigative Report prepared by Julie Knost, IU’s Director of Affirmative Action and
Equal Opportunity, and Sally Ronald, IU’s Associate Director of Student Welfare and Title IX,
10

■

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 11 of 29 PagelD #: 472

described IU’s initial receipt of allegations of inappropriate conduct by Mr. Edwards:
On December 7, 2017, the University received an online report submitted by a
Residential Assistant [(“RA”)] in Wright Quad, in that person’s role as a
responsible employee, concerning allegations by two students against Dr. Edwards.
Specifically, the RA’s report indicated that Student [N.L.] reported to her RA that
her professor, Dr. Edwards, made her “uncomfortable” during class by giving
compliments and getting very close to her physically. NL also shared with her RA
that her friend, student [A.L.] had also had a recent encounter with Dr. Edwards.
The RA followed up with AL and got AL’s account. Specifically, AL told the RA
that Dr. Edwards had invited her to his house earlier that week for dinner; that Dr.
Edwards took her upstairs and asked her to lie on his bed while he massaged her;
that he engaged in non-consensual touching of AL’s upper thighs, buttocks, and her
breast over her clothing; and that Dr. Edwards then proposed that AL enter into a
sexual relationship with him.
fFilingNo. 31-12 at 1: Filing No. 31-14 at 1.12
These allegations prompted IU to initiate an investigation and also to suspend Mr. Edwards
with pay from his academic duties pending the conclusion of the investigation into the allegations.
fFilingNo. 31-1 at 3; Filing No. 31-1 at 7; Filing No. 31-10 at 1.1
5. The Investigation Into the December 2017 Allegations
Ms. Knost and Ms. Ronald met with Mr. Edwards on January 22, 2018, and reviewed the
contents of the RA’s online report with Mr. Edwards without providing him with the identity of
either student. fFilingNo. 31-14 at 2.1 Mr. Edwards denied all of the allegations, and also denied
having ever had a student to his home for dinner. fFiling No. 31-14 at 2.1
On January 29, 2018, Ms. Ronald met with A.L. and A.L. described her interactions with
Mr. Edwards. Those details are set forth in an Investigative Report prepared by Ms. Knost and
Ms. Ronald:
AL stated that on the first day of her fall 2017 class with Dr. Edwards, Dr. Edwards
gestured for her to come forward to speak with him after class, in a class of roughly
2 The initial Investigative Report stated that IU received the online report of allegations against
Mr. Edwards on December 13, 2017. fFiling No. 31-12 at 1.1 This was a typographical error, and
the date was later corrected to December 7, 2017. fFiling No. 31-2 at 2: Filing No. 31-14 at 1.1
11

'

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 12 of 29 PagelD #: 473

300 students. AL stated that Dr. Edwards encouraged her to come to his office
hours on Monday and Wednesday afternoons, but AL informed him that those
office hours conflicted with her class schedule. AL stated that Dr. Edwards then
suggested that they could find another time to meet during the week.
AL stated that she regularly met with Dr. Edwards over the course of the semester,
roughly once per week, sometimes in his Chemistry office and sometimes in his
SPEA office. AL stated that they talked about a range of subjects, including the
class, their families, and their lives. AL stated that partway through the semester,
Dr. Edwards recommended the book Jonathan Livingston Seagull to her and
offered to buy it for her from Barnes and Noble. AL stated that she and Dr. Edwards
went to Panera first for lunch before going to Barnes and Noble and ordering the
book.
AL stated that after this, during other meetings together, Dr. Edwards began
bringing up the idea of cooking a meal for her at his house, but she explained that
she would decline the offer and say that she was busy. AL stated that then, during
dead week, Dr. Edwards again asked her to come to his house for dinner and said
that it was the best time to do it since it was right before finals week. AL stated
that she felt “pressured” to accept the invitation. AL stated that that same night she
went to Dr. Edwards’ SPEA office and waited in his office while he taught a late
class elsewhere in the building.
AL stated that Dr Edwards then drove her in his car to pick up a pizza and then to
his house. AL stated that she thought it was weird at the time because Dr. Edwards
had bragged about his cooking and that was the reason to have her visit his house.
AL stated that she remembered that Dr. Edwards drove a Cadillac. AL stated that
she was not sure where exactly Dr. Edwards’ home was, but she felt that it was not
far from the location where he picked up the pizza, which she believed to be
Rockit’s Pizza.
During this meeting, AL provided [Ms.] Ronald with a detailed description of the
interior of Dr. Edwards’ house, including specific furniture, art on the walls, and
the layout of the rooms. AL stated that, after dinner, Dr. Edwards showed her the
upstairs of his house, including his bedroom. AL described the bedroom as having
a large bed, large closet, and a large mirror on the wall across from the bed.
AL stated that Dr. Edwards told her that she should sit down on the bed and she
asked him why. AL stated that Dr. Edwards told her that she could trust him and
there was no reason she should feel uncomfortable. AL stated that after she sat
down on the bed, Dr. Edwards then asked her to lie down and spread out her arms
and legs. AL stated that she again asked Dr. Edwards why she should do this, and
told [Ms.] Ronald that Dr. Edwards responded similarly that she could trust him.
In the meeting with [Ms.] Ronald, AL described how she felt at this time as if she
was “in a movie” and was not sure what Dr. Edwards would do if she said no to
him. AL explained that she was thinking that she was not close to campus, that Dr.
12

■ Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 13 of 29 PagelD #: 474

Edwards had driven her there and she was not sure where she would go if she tried
to get away.
Once she had spread out on the bed, AL stated that Dr. Edwards said that he wanted
to give her a foot massage. AL stated that Dr. Edwards began by rubbing her feet,
but then began rubbing her legs higher and higher and eventually rubbing her
thighs. AL told [Ms.] Ronald that she felt “really uncomfortable” at this point. AL
stated that Dr. Edwards told her to roll over onto her stomach. AL stated that she
again asked why and Dr. Edwards gave her a similar answer saying that he would
not hurt her. AL stated that, once she was on her stomach, Dr. Edwards began
rubbing her legs again and began rubbing her buttocks. AL stated that Dr. Edwards
then asked her to roll back over and when she did, he placed his hand up her hoodie
and massaged her breast over her bra.
AL stated that Dr. Edwards then stopped touching her and sat on the floor. AL
stated that Dr. Edwards began asking her what she thought of him and if she had
ever seen herself with an older man. AL stated that Dr. Edwards complimented her
and told her that he did not want a relationship with her, but that she could come
over and they could just “have fun” together. AL stated that she told Dr. Edwards
she did not see that happening. AL stated that Dr. Edwards then told her that he
wanted to have sex with her but had too much respect for himself to force himself
on her. AL stated that Dr. Edwards expanded on this thought, and told her that he
would not tell students to sleep with him to get a good grade because he has too
much respect for himself.
AL stated that Dr. Edwards then drove her back to Wright. AL stated that the only
other communication she had with Dr. Edwards after that night was a text from him
that stated “Best on all your final exams” on December 12, 2017. Overall AL’s
account was consistent with what she had described to her RA in the original
December 2017 report.
During the meeting, AL informed [Ms.] Ronald that she had texted with her
roommate before going to Dr. Edwards’ house and a few times while she was in his
home because she was worried about what would happen. AL provided these texts
to [Ms.] Ronald...on February 13, 2018. In a text to her roommate on December
4,2017, AL states that she is going to Dr. Edwards’ house and says “he’s mentioned
it before but if anything happens to me you know where I was lol” and later, “He
said he just wants to talk for a bit. Which is fine I trust him. But like I said if
anything happens you know where I was lol.” Later that evening, AL’s roommate
texted her while was still at Dr. Edwards’ house to check in, and AL responded “He
ain’t right girl” and later “I think after chemistry ends...I’m never talking to him
again.”
[Filing No. 31-14 at 2-4.1

13

• Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 14 of 29 PagelD #: 475

On March 7, 2018, Ms. Ronald, IU’s Senior Associate General Counsel Kip Drew, Mr.
Edwards’ advisor, and Mr. Edwards met to discuss the allegations. [Tiling No. 31-14 at 4.1 Prior
to the meeting, Mr. Edwards had been informed by email of A.L.’s identity and that the encounter
about which A.L. complained had taken place on December 4, 2017. [Filing No. 31 -14 at 4.1 At
the March 7, 2018 meeting:
Dr. Edwards again denied the allegations.... Dr. Edwards stated during the meeting
that he believed AL was not doing well in his class and that she came from a very
troubled background, but reaffirmed his prior statement that the events as alleged
did not happen. Dr. Edwards stated that he knew AL and met with her multiple
times to discuss the class and life, that he may have recommended a reading to her,
but that she had not come to his house. Dr. Edwards denied all the allegations,
including specifically denying that he ever had a student come to his home for
dinner.
fFilineNo. 31-14 at 2.1
In his deposition in this case, Mr. Edwards confirmed many details that A.L. had provided
during her meeting with Ms. Ronald and Ms. Knost regarding Mr. Edwards’ car and home,
including:
•

That Mr. Edwards’ car was a Cadillac;

•

That Mr. Edwards’ home has a world map on the wall;

•

That Mr. Edwards’ home has a master walk-in closet;

•

That Mr. Edwards’ home has a fireplace with photographs above it;

•

That Mr. Edwards’ home has a dining room to the left upon entering the front
door, with a wooden table in it; and

•

That Mr. Edwards keeps beverages in his garage.

fFilineNo. 31-1 at 10-11.1
On March 26, 2018, the Investigative Report was provided to Eliza Pavalko, IU’s Vice
Provost for Faculty and Academic Affairs. [Tiling No. 31-2 at 2.1 In the Investigative Report, Ms.
14

• Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 15 of 29 PagelD #: 476

Knost and Ms. Ronald recommended Mr. Edwards’ termination, fFiling No. 31-14 at 7.1 Mr.
Edwards was also provided with a copy of the Investigative Report, and responded to Vice Provost
Pavalko on April 5, 2018. fFiling No. 31-1 at 13: Filing No. 31-13.1 Mr. Edwards vehemently
denied all of the allegations against him in his response to the Investigative Report, and also stated
that he believed he was being discriminated against due to his race. fFiling No. 31-13.1 He stated,
in part:
I deny that I engaged in any inappropriate conduct with NL and/or AL.
Specifically, I did not give inappropriate compliments and/or get physically close
to NL. Moreover, I did not invite AL to my home for dinner nor did AL come to
my home for dinner. As AL was never in my home, I did not touch AL physically
nor did I ask AL to enter into a sexual relationship. Any and all allegations relating
to NL and AL are patently false. Moreover, all of the prior allegations are false as
well. I have never engaged in any inappropriate conduct with any student, staff
member or faculty member.
I believe I am being discriminated against on the basis of my race, AfricanAmerican. I am the only African-American professor in the Chemistry Department,
and I am only one (1) of four (4) African-Americans in [SPEA]....
[Filing No. 31-13 at 3-4.1
Thereafter, A.L. was provided a copy of Mr. Edwards’ response, and she emailed Vice ,
Provost Pavalko stating that Mr. Edwards was not being truthful and that “[everything [she]
detailed in [her] report is true.” fFiling No. 31-15.1 On April 9, 2018, Vice Provost Pavalko
“determined that [A.L.’s] allegations were credible and true and that [Mr.] Edwards’ behavior
violated the University’s Sexual Misconduct Policy and also constituted serious personal
misconduct.” fFiling No. 31-3 at 2.] Accordingly, she “made the decision to discharge [Mr.]
Edwards for cause pursuant to the University’s policy on Permanent Separations for Academic
Appointees, effective April 19, 2018 and notified [Mr.] Edwards accordingly.” fFiling No. 31-3
at 2.] Vice Provost Pavalko averred:

15

1

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 16 of 29 PagelD #: 477

My decision to discharge [Mr.] Edwards for cause was in good faith, truthful, and
had nothing to do with [Mr.] Edwards’s race or prior claims of alleged
discrimination, if any. Further, I had no reason [to] doubt that the allegations
against [Mr.] Edwards[ ] were true and, in fact, did then and still do believe them
to be true. Additionally, I had no reason to doubt that the investigation done by
[Ms.] Knost and [Ms.] Ronald, and their subsequent investigative report and
recommendation were in good faith, truthful, and had nothing to do with [Mr.]
Edwards’s race or prior claims of alleged discrimination, if any.
fFiling No. 31-3 at 2-3.1
6. Mr. Edwards ’ Appeal of Vice Provost Pavalko ’s Decision
On April 18, 2018, Mr. Edwards appealed Vice Provost Pavalko’s decision to terminate
him to IU’s Provost and Executive Vice President, Lauren Robel. [Filing No. 31-1 at 18: Filing
No. 31-4 at 1-2: Filing No. 31-4 at 4-7.1 Provost Robel reviewed Mr. Edwards’ appeal, the
Investigative Report, and the underlying materials from the investigation, and affirmed Vice
Provost Pavalko’s decision to terminate Mr. Edwards for cause. [Filing No. 31-4 at 2.1 Provost
Robel’s decision “was in good faith, truthful, and had nothing to do with [Mr.] Edwards’s race or
prior claims of alleged discrimination, if any.” fFiling No. 31-4 at 2.1 Additionally, Provost Robel
“had no reason to doubt that the allegations against [Mr.] Edwards [ ] were true and, in fact, did
then and still do believe them to be true.” fFiling No. 31-4 at 2.1 Provost Robel also “had no
reason to doubt that Vice Provost Pavalko’s decision was in good faith, truthful, and had nothing
to do with [Mr.] Edwards’s race or prior claims of alleged discrimination, if any,” and also “had
no reason to doubt that the investigation done by [Ms.] Knost and [Ms.] Ronald, and their
subsequent investigative report and recommendation were in good faith, truthful, and had nothing
to do with [Mr.] Edwards’s race or prior claims of alleged discrimination, if any.” fFiling No. 314 at 2.1

16

*

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 17 of 29 PagelD #: 478

7. Mr. Edwards ’ Requestfor FBR Review
On April 30, 2018, Mr. Edwards requested that the FBR review Provost Robel’s decision
to affirm Vice Provost Pavalko’s termination decision. [Filing No. 31-5 at 2; Filing No. 31-5 at
4-8.1 The FBR was comprised of five IU Professors - Judah Cohen, Lessie Jo Frazier, Jody
Madiera, Peter Kloosterman, and Barbara Dennis. [Filing No. 31-5 at 2.1 Vice Provost Pavalko
responded to Mr. Edwards’ request for FBR review on May 29, 2018. [Filing No. 31-5 at 17-22.1
After reviewing Mr. Edwards’, request for review, Vice Provost Pavalko’s response, and other
documents that were submitted, the FBR issued a unanimous decision on June 25, 2018 which
concurred with Vice President Pavalko’s decision to discharge Mr. Edwards. [Filing No. 31-5 at
2; Filing No. 31-5 at 42-43.1
Each FBR member’s decision was “in good faith, [was] truthful, and had nothing to do
with [Mr.] Edwards’s race or prior claims of alleged discrimination, if any.” [Filing No. 31-5 at
2; Filing No. 31-6 at 1-2; Filing No. 31-7 at 1-2; Filing No. 31-8 at 1-2: Filing No. 31-9 at 2.1
Additionally, each FBR member had no reason to doubt that Vice Provost Pavalko’s termination
decision and Provost Robel’s decision to affirm Vice President Pavalko’s termination decision
were made “in good faith, [were] truthful, and had nothing to do with [Mr.] Edwards’s race or
prior claims of alleged discrimination, if any.” [Fil ing No. 31-5 at 2; Filing No. 31-6 at 1; Filing
No. 31-7 at 1-2; Filing No. 31-8 at 1-2; Filing No. 31-9 at 2.1 The FBR members also had no
reason to doubt that the investigation done by Ms. Knost and Ms. Ronald, and their Investigative
Report, “were in good faith, truthful, and had nothing to do with [Mr.] Edwards’s race or prior
claims of alleged discrimination, if any.” [Filing No. 31-5 at 2: Filing No. 31-6 at 1-2; Filing No.
31-7 at 2: Filing No. 31-8 at 2; Filing No. 31-9 at 2.1

17

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 18 of 29 PagelD #: 479

8. Provost Robel ’s Re-Affirmation of the Termination Decision
On June 28,2018, Provost Robel re-affirmed her prior determination to affirm Vice Provost
Pavalko’s termination decision, which finalized Mr. Edwards’ discharge from IU for cause.
[Filing No. 31-4 at 2; Filing No. 31-4 at 16.1 The re-affirmation was based on the FBR’s decision
and Provost Robel’s prior decision, and provost Robel “had no reason to doubt that the [FBR’s]
decision was in good faith, truthful, and had nothing to do with [Mr.] Edwards’s race or prior
claims of alleged discrimination, if any.” [Filing No. 31-4 at 2.1
9. Mr. Edwards ’ Equal Employment Opportunity Commission Charge
Mr. Edwards filed a Charge of Discrimination with the Equal Employment Opportunity
Commission (the “EEOC Charge”], and filed his “Attachment to Charge of Discrimination” as an
exhibit to his Amended Complaint, but not the EEOC Charge itself. [Filing No. 17; Filing No. 171 at 1-2.1 In the Attachment to Charge of Discrimination, Mr. Edwards states that:
•

He was discharged from IU’s Chemistry Department in January 2010 after
receiving an “unprofessional and offensive” letter from IU. Another faculty
member felt that Mr. Edwards should be evaluated for a promotion as any other
faculty member would be, and formed a promotion committee. The Chemistry
Department ultimately recommended and supported Mr. Edwards’ promotion.
Mr. Edwards then submitted a dossier to SPEA for consideration of a promotion
in that department.

•

SPEA denied Mr. Edwards a promotion in the fall of 2010, Mr. Edwards
appealed the decision, and the appeal was denied. He requested a promotion
again in 2011, was again denied, appealed, and the appeal was denied. He was
told his dossier documents “were not all together” and, once that issue was
remedied, the Vice Provost, the Provost, IU’s President, and the IU Board of
Trustees all supported his promotion in SPEA.

•

Sometimes faculty members in the Chemistry Department made inappropriate
comments to Mr. Edwards. When Mr. Edwards said hello to a faculty member,
the faculty member responded, “Some of us have to work around here.” When
Mr. Edward's said to another faculty member, “Great minds! How are you
doing?,” the faculty member responded, “What are you doing here?”

18

‘ Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 19 of 29 PagelD #: 480

•

In 2012, the Associate Dean of SPEA halted Mr. Edwards’ discretionary funds
for minority outreach, attempted to change Mr. Edwards’ contract from 12
months to 9 months without notice, and terminated the internship program that
Mr. Edwards started in Jamaica West Indies for SPEA graduate students.

•

Mr. Edwards filed a complaint with Provost Robel in 2016 after the Co-Chair
of the Chemistry Department screamed at him and stated, “Call me by my
f***ing name” after a discussion of class assignments based on race. Mr.
Edwards’ complaint resulted in a requirement that ITJ conduct training on
“racial climate,” but Mr. Edwards does not know if the training ever took place.

•

After resigning from an administrative role for a $5 million grant from the
National Science Foundation, Mr. Edwards was suspended four months later,
on December 7, 2017, “based on false allegations....” He “vehemently denied
the allegations and still den[ies] them to this day.” Although IU’s Policy
requires that an investigation be completed within 60 days absent any appeals,
the investigation into the allegations against Mr. Edwards was not completed
until 123 days after the initial complaint was received. The complainant did
not meet with investigators until 53 days after the initial report of misconduct.

•

Mr. Edwards “was ultimately terminated from [IU] on April 19, 2018 after a
biased investigation against [him]. [He] believe[s he] was discriminated and
retaliated against on the basis of [his] race, African-American. [He] was the
only African-American professor in the Chemistry Department, and [he] was
only one (1) of four (4) African-Americans in [SPEA],

[Filing No. 17-1 at 1-2.1 The EEOC issued a Right to Sue Letter to Mr. Edwards on December
20, 2018. [Filing No. 17-1 at 3.1
10. Mr. Edwards’ Lawsuit
Mr. Edwards filed his initial Complaint on March 12, 2019 against IU and Carol Barnett,
who Mr. Edwards described as IU’s Senior Associate General Counsel, with his “Attachment to
Charge of Discrimination” as an exhibit. [Filing No. 1; Filing No. 1-1.1 He filed the operative
Amended Complaint on May 21, 2019, which is substantially the same as his initial Complaint
and also attaches the “Attachment to Charge of Discrimination” as an exhibit, but does not name
Ms. Barnett as a defendant. [Filing No. 17; Filing No. 17-1.1 Mr. Edwards appears to allege
claims for race discrimination and retaliation. [See Filing No. 17-1.]
19

■

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 20 of 29 PagelD #: 481

C. Discussion
Mr. Edwards does not reference the statutes under which he brings his discrimination and
retaliation claims. [Filing No. 17.1 IU has assumed that Mr. Edwards brings his discrimination
and retaliation claims under both 42 U.S.C. § 1981 and Title VII of the Civil Rights Act of 1964,
as amended, [see Filing No. 33 at 141. and the Court does the same.
1. Section 1981 Claims
IU argues that, to the extent Mr. Edwards brings his claims under § 1981, those claims are
barred because IU is entitled to immunity. [Filing No. 33 at 15-16.1 IU asserts that it is an
instrumentality of the state, entitled to Eleventh Amendment immunity, and that there is no
evidence to suggest that IU has waived immunity or otherwise consented to the lawsuit. [Filing
No. 33 at 16.1
Mr. Edwards does not address IU’s immunity argument in his response. [See Filing No.
34-]
Eleventh Amendment immunity bars suits against states and their agencies regardless of
whether the relief sought is monetary damages or injunctive relief. Seminole Tribe of Florida v.
Florida, 517 U.S. 44, 58 (1996); Pennhurst State School & Hosp. v. Haider man, 465 U.S. 89, 10102 (1984). “A state and its agencies cannot be subject to a federal suit without the state’s
consent..., and this bar applies with full force to claims under § 1981....” Haynes v. Ind. Univ.,
902 F.3d 724, 731 (7th Cir. 2018) (citingN. Ins. Co. ofN.Y. v. Chatham Cnty., 547 U.S. 189, 193
(2006) and Rucker v. Higher Educ. Aids Bd., 669 F.2d 1179, 1184 (7th Cir. 1982)). Additionally,
“[Indiana University] and its Board of Trustees are state agencies for sovereign-immunity
purposes.” Haynes, 902 F.3d at 731 (citing Peirick v. Ind. Univ.-Purdue Univ. Indianapolis
Athletics Dep't, 510 F.3d 681, 695 (7th Cir. 2007)); see also Feresu v. Ind. Univ. Bloomington,
20

*

Case l:19-cv-01000-JMS-MJD Document 38

Filed 04/29/20 Page 21 of 29 PagelD #: 482

2015 WL 5177740, at *3 (S.D. lnd. 2015) (“IU is an ‘instrumentality,’ ‘arm,’ or ‘alter ego’ of the
State of Indiana for purposes of the Eleventh Amendment”); Shannon v. Bepko, 684 F. Supp. 1465,
1473 (S.D. lnd. 1988) (“Indiana University is an instrumentality of the state such that it is entitled
to assert Eleventh Amendment immunity”).
Because IU is a state agency, and since it has not consented to being sued in federal court,
Mr. Edwards’ claims against IU - to the extent they are brought under § 1981 - are barred by
Eleventh Amendment immunity. McDonough Assoc., Inc. v. Grunloh, 722 F.3d 1043, 1049 (7th
Cir. 2013) (“[T]he general rule is that private individuals are unable to sue a state in federal court
absent the state’s consent”). IU’s Motion for Summary Judgment as it relates to discrimination
and retaliation claims brought under § 1981 is GRANTED.
2. Title VII Claims
Mr. Edwards appears to bring claims for discrimination and retaliation under Title VII, and
the Court addresses each claim in turn. Mr. Edwards alleges that IU discriminated against him
based on the following:
•

His discharge from the Chemistry Department in early 2010;

•

His denial of a promotion in SPEA in fall 2010;

•

Comments from faculty members in the Chemistry Department that he viewed
as “inappropriate”;

•

In 2012, SPEA halting his funding for minority outreach, attempting to change
his contract from 12 months to 9 months without notice, and ending an
internship program that he started;

•

In 2016, the Co-Chair of the Chemistry Department screaming “Call me by my
f***ng name”;

•

His treatment relating to A.L’s allegations, including that it took IU 123 days
to complete its investigation instead of 60 days, that A.L. did not meet with
investigators for 53 days after the initial report, that the initial Investigative
Report stated that the initial report was made on December 13, 2017 but it was
21

-

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 22 of 29 PagelD #: 483

actually on December 7, 2017, and that he was terminated “after a biased
investigation.”
fFiling No. 17-1: Filing No. 34.1
The Court finds at the outset, that Mr. Edwards’ allegations related to his treatment by IU
before December 2017 (when A.L. accused Mr. Edwards of misconduct) are time-barred, and
cannot form the basis for Mr. Edwards’ claims in this lawsuit. A claimant must file a charge with
the EEOC within 180 days of an allegedly discriminatory act, 42 U.S.C. § 2000e-5(e), or within
300 days “if a claimant initially institutes proceedings with a state or local agency that possesses
the authority to address the alleged discrimination,” Black v. Rieth-Riley Constr. Co., Inc., 957 F.
Supp. 177, 180 (S.D. Ind. 1997). This deadline “protect[s] employers from the burden of
defending claims arising from employment decisions that are long past.” Id. (internal quotation
and citation omitted). Once the claimant receives a right to sue letter from the EEOC, he must file
a lawsuit within 90 days of receipt of the right to sue letter. [See Filing No. 17-1 at 3 (Mr. Edwards’
Right to Sue Letter).] There is no evidence that Mr. Edwards’ allegations related to his treatment
by IU before December 2017, when A.L. brought her allegations to IU’s attention, were included
in the EEOC Charge that resulted in the Right to Sue Letter. Accordingly, any claims related to
those allegations would fail as a matter of law because Mr. Edwards has not shown that he
exhausted his administrative remedies. And, even if they were included, Mr. Edwards’ EEOC
Charge as to those allegations - which relate to events which took place more than 180 days before
the EEOC Charge was filed - would have been untimely.
The only allegations Mr. Edwards may rely on in this case, and for which he has shown
that he exhausted his administrative remedies, relate to IU’s handling of A.L.’s accusations and
IU’s discipline and ultimate termination of Mr. Edwards due to those allegations. The Court
considers Mr. Edwards’ discrimination and retaliation claims in turn, within those parameters.
22

* Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 23 of 29 PagelD #: 484

a. Discrimination Claim
IU argues that Mr. Edwards has failed to establish a primafacie case of race discrimination
because he has not shown that a similarly situated employee not in a protected class was treated
more favorably. [Filing No. 33 at 17-18.1 IU also contends that it has established a legitimate,
nondiscriminatory reason for Mr. Edwards’ discharge - namely, that he violated the Policy by
“engaging in inappropriate nonconsensual sexual contact with his student.” [Filing No. 33 at 19.1
It asserts that there is no evidence that Mr. Edwards’ discharge was pretextual, and that “[i]t is
clear that [Mr.] Edwards does not have any evidence of discrimination beyond his own subjective
belief that some factor other than his sexual misconduct with a student (and his own history of
similar inappropriate behavior on at least four occasions) must be the reason for his termination.”
[Filing No. 33 at 20.1 IU notes that Mr. Edwards was asked during his deposition whether he had
evidence of pretext, and “never could articulate the basis for his belief that the University was
motivated by race in the termination decision beyond stating simply that it was his belief.” [Filing
No. 33 at 20.1 IU argues that Mr. Edwards, at best, thinks the decision to discharge him was wrong
due to his belief that A.L.’s allegations were false, and that Mr. Edwards himself admits that if the
allegations were true, discharge would be justified. [Filing No. 33 at 21.1 It asserts that Mr.
Edwards testified at his deposition that he thinks IU believed A.L.’s allegations, and that “the
extent of [Mr.] Edwards’s position is simply that the University was wrong in concluding he
engaged in sexual misconduct with a student and therefore it must be discrimination because of
his race.” [Filing No. 33 at 22.1 Finally, IU addresses Mr. Edwards’ claim that IU violated its
own procedures in investigating A.L.’s allegations, arguing that it complied with the Policy and
that even if it had not, “this is simply not evidence of racial discrimination by the University.”
[Filing No. 33 at 22.1
23

•

Case i:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 24 of 29 PagelD #: 485

In his response, Mr. Edwards states that he has attached documents “to show evidence of
unfair treatment before, during and after [his] promotion,” that he has witnesses he can call to
support his case, and that he is “asking the court to have a public hearing so [his] case can be
heard.” [Filing No. 34 at 2.1 The attached documents include a list of “evidence,” copies of several
emails and letters, and some handwritten notes. [Filing No. 34 at 3-13.1
Title VII of the Civil Rights Act of 1964 forbids an employer from discriminating against
any individual with respect to his “compensation, terms, conditions, or privileges of employment,
because of such individual’s race, color, religion, sex, or national origin.” 42 U.S.C. § 2000e2(a)(1). “To survive summary judgment on a Title VII discrimination claim, a plaintiff must
present evidence that would permit a reasonable factfinder to conclude that the plaintiff s race,
ethnicity, sex, religion, or other proscribed factor caused the discharge.” Milligan-Grimstad v.
Stanley. 877 F.3d 705, 710 (7th Cir. 2017) (quotation and citation omitted). In discrimination
cases, “‘the sole question that matters’ is causation: whether a statutorily proscribed factor caused
[the adverse employment action].” Jolt v. Valparaiso Comm. Schs., 953 F.3d 923, 929 (7th Cir.
2020) (quoting Ortiz v. Werner Enterprises Inc., 834 F.3d 760, 764-65 (7th Cir. 2016)). A plaintiff
may rely on both direct and circumstantial evidence to support an inference of causation and intent.
Joll, 953 F.3d at 929. A plaintiff can also “enlist the burden-shifting framework of McDonnell
Douglas [Corp. v. Green, 4.11 U.S. 792 (1973)],” “[t]o clarify and to simplify [his] task.” Joll,
953 F.3d at 929 (quotation and citation omitted). The Court’s focus is to “consider[ ] [the
evidence] as a whole, rather than asking whether any particular piece of evidence proves the case
by itself - or whether just the ‘direct’ evidence does so, or the ‘indirect’ evidence.” Golla v. Office
of Chief Judge of Cook Only.. III., 875 F.3d 404, 407 (7th Cir. 2017) (quoting Ortiz, 834 F.3d at
765). In determining whether the evidence would permit a reasonable factfinder to conclude that
24

•

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 25 of 29 PagelD #: 486

Mr. Edwards’ race caused him to be treated unfairly, “the burden-shifting framework of
McDonnell Douglas remains relevant as a means of organizing, presenting, and assessing
circumstantial evidence in frequently recurring factual patterns found in discrimination cases.”
Owens v. Old Wis. Sausage Co., Inc., 870 F.3d 662, 667 (7th Cir. 2017) (quotation and citation
omitted). But the Court “review[s] the evidence holistically to see if it permits an inference of race
discrimination.” Lloyd v. Mayor of City of Peru, 761 Fed. App’x 608, 610 (7th Cir. 2019).
Mr. Edwards relies on two theories in support of his discrimination claim: (1) that IU
violated the Policy by taking too long to investigate A.L.’s allegations; and (2) that because A.L.’s
allegations were not true, his termination was motivated by race. Neither theory saves his
discrimination claim.
First, there is no evidence that IU’s investigation violated the Policy, as Mr. Edwards
claims. Its investigation did take more than 60 days, but that was in compliance with the Policy
which provides that “[a]ll procedures, excluding any appeal, should be completed within 60 days,
absent any special circumstances.” fFiling No. 31-23 at 2 (emphasis added).] In her April 20,
2018 decision on Mr. Edwards’ appeal, Provost Robel explained the “special circumstances” that
warranted additional time, including that: (1) a Resident Advisor, not A.L., made the initial report,
requiring the Title IX officer to then contact A.L. and determine whether she wanted to proceed
with an investigation; and (2) A.L. responded to the Title IX officer on December 13, 2017, but
did not meet with the investigators until January 29, 2018 due to final exams and semester break.
fFiling No. 31-18 at 4-5.] Provost Robel noted that “[f]rom the time [A.L.] spoke to the Title IX
investigators until the March 26, 2018 investigative report was released was less than 60 days,”
and that “[t]he revised report, issued on April 9, corrected a single fact.” fFiling No. 31-18 at 4.1

25

’

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 26 of 29 PagelD #: 487

Second, whether A.L.’s allegations were actually true is irrelevant. The correct focus is
whether IU believed that the allegations were true, and whether that belief formed the basis for
IU’s decision to terminate Mr. Edwards. Although “[a]n inference of discrimination may follow
when the employer’s purported nondiscriminatory reason for taking an adverse action against the
employee was pretextual, meaning it was ‘a lie’ or ‘a phony reason,”’ de Lima Silva v. Dept, of
Corrections, 917 F.3d 546, 561 (7th Cir. 2019), Mr. Edwards has not presented any evidence
showing that IU somehow relied on A.L.’s allegations as a cover-up for discriminating against him
based on his race. To show pretext, Mr. Edwards would need to ‘“identify such weaknesses,
implausibilities, inconsistencies, or contradictions’” in IU’s reasons for terminating him “‘that a
reasonable person could find [those reasons] unworthy of credence.’” Coleman v. Donahoe, 667
F.3d 835, 852-53 (7th Cir. 2012) (quoting Boumehdi v. PlastagHoldings, LLC, 489 F.3d 781, 792
(7th Cir. 2007)). Mr. Edwards has not presented any evidence indicating pretext, such as “shifting
or inconsistent explanations” for the treatment he received from IU. Appelbaum v. Milwaukee
Metro. Sewerage Dist, 340 F.3d 573, 579 (7th Cir. 2003). And tellingly, Mr. Edwards testified at
his deposition that he has no evidence that IU did not believe A.L.’s allegations, [Filing No. 31-1
at 22], and that he believes that IU found A.L.’s allegations to be truthful and “[t]haf s why they
did what they did,” [Filing No. 31-1 at 191. Mr. Edwards even went so far as to testify that if
A.L.’s allegations were true, they would justify his termination. [Filing No. 31-1 at 22 (“Q: If the
allegations by [A.L.] were true, do you believe it would have justified your termination? A: If the
allegations were true, would it justify my termination? Yeah, if they were true”).]
As to whether there is any evidence that race was a motivating factor in IU’s decision to
terminate Mr. Edwards, the Court notes that Mr. Edwards relies solely on his belief that race was
a motivating factor in IU’s handling of A.L.’s allegations and the decision to terminate Mr.
26

.

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 27 of 29 PagelD #: 488

Edwards. [See, e.g., Filing No. 31-1 at 6 (Mr. Edwards testifying at his deposition that “I believe
I was discriminated because I’m black. I believe. That’s what I say, I believe. I didn’t say they
discriminated because I was, I said I believe...”).] But Mr. Edwards’ belief that race was a factor
in IU’s treatment of him - without more - is not enough to survive summary judgment on his race
discrimination claim. Yancick v. Hanna Steel Corp., 653 F.3d 532, 548 (7th Cir. 2011) (“If the
subjective beliefs of plaintiffs in employment discrimination cases could, by themselves, create
genuine issues of material fact, then virtually all defense motions for summary judgment in such
cases would be doomed”) (quotation and citation omitted).
Additionally, while “[discrimination may be inferred when an employer treats an
employee in a protected class less favorably than it treats a similarly-situated employee outside
that class,” de Lima Silva, 917 F.3d at 559, Mr. Edwards has not put forth any evidence indicating
that was the case. In fact, he testified at his deposition that he did not have any such evidence.
[Filing No. 31-1 at 22 (in response to a question at his deposition regarding whether he could point
to anyone similarly situated who was treated more favorably by IU, Mr. Edwards testified “I don’t
know of anyone I can speak of myself’).]
In sum, glaringly absent from this case is any evidence whatsoever that IU’s handling of
A.L.’s allegations and Mr. Edwards’ treatment and ultimate termination were based in any way on
race. Accordingly, the Court GRANTS IU’s Motion for Summary Judgment on Mr. Edwards’
Title VII race discrimination claim.
b. Retaliation Claim
IU argues that Mr. Edwards’s sexual misconduct with a student caused his termination, and
that Mr. Edwards “has set forth absolutely no evidence that his termination was in retaliation for
anything.” [Filing No. 33 at 23.1 It asserts that there is no evidence that IU’s investigation and
27

Case l:19-cv-01000-JMS-MJD Document 38 Filed 04/29/20 Page 28 of 29 PagelD #: 489

termination of Mr. Edwards “were a guise to cover up retaliation for something [Mr.] Edwards
did.” fFiline No. 33 at 23-24.1
Mr. Edwards does not address IU’s arguments related to his retaliation claim in his
response.
To survive summary judgment on his retaliation claim, Mr. Edwards must present evidence
showing that ‘“[he] suffered a materially adverse action because [he] engaged in protected
activity.’” Lloyd, 761 Fed. App’x at 611-12 (quoting Shot! v. Katz, 829 F.3d 494, 497 (7th Cir.
2016)). The questions is “whether the evidence produced would permit a reasonable factfinder to
conclude [Mr. Edwards’ race] caused the discharge.” Swyear v. Fare Foods Carp., 911 F.3d 874,
885 (7th Cir. 2018).
Mr. Edwards has not presented any evidence to show that he was terminated because he
engaged in protected activity. In fact, as discussed above, he testified that he thought IU believed
A.L.’s allegations and that if the allegations were true, his termination would be justified. [Filing
No. 31-1 at 19; Filing No. 31-1 at 22.1 Mr. Edwards himself acknowledges that IU terminated,him
because it had concluded that A.L.’s allegations were true, and not because Mr. Edwards engaged
in statutorily protected activity. The lack of evidence indicating otherwise dooms Mr. Edwards’
retaliation claim, and the Court GRANTS IU’s Motion for Summary Judgment on that claim.
III.
Conclusion
Based on the foregoing, the Court finds that IU is entitled to Eleventh Amendment
immunity on Mr. Edwards’ § 1981 race discrimination and retaliation claims, and that Mr.
Edwards’ Title VII race discrimination and retaliation claims fail as a matter of law. The Court
DENIES IU’s Motion to Strike Late Response to Motion for Summary Judgment, [35], and
GRANTS IU’s Motion for Summary Judgment, [30]. Final judgment shall enter accordingly.
28

$

*

Case l:19-cv-01000-JMS-MJD Document 39 Filed 04/29/20 Page 1 of 1 PagelD #: 491

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
Michael Edwards,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.

Indiana University,
Defendant.

No. 1:19-cv-01000-JMS-MJD

FINAL JUDGMENT PURSUANT TO FED. R. CIV. P. 58
For the reasons set forth in the Court’s Order entered this day, the Court now enters FINAL
JUDGMENT against Plaintiff and in favor of Defendant, such that Plaintiff shall take nothing by
way of his Amended Complaint.

-i/n

/Two

Date: 4/29/2020

[Hon. Jane Maghtis-Stinson, Chief Judge
United States District Court
Southern District of Indiana
Laura A. Briggs, Clerk

/
BY: .

}W

Deputy Clerk, U.S. District Court

Distribution via United States Mail to:
Michael Edwards
1516 West Edinburgh Bend
Bloomington, IN 47403
Distribution via ECF only to all counsel of record

1 .

i

